OIG Audit Report 00-11
Department Of JusticeFY 2000 Summary Performance PlanGovernment Performance and Results Act
Report No. 00-11March 2000Office of the Inspector General
EXECUTIVE SUMMARY
The Government Performance and Results Act (Results Act) of 1993 required the Department of Justice (Department) and other federal agencies to prepare a Strategic Plan, Annual Performance Plans, and Annual Performance Reports.
The Department's first Strategic Plan was submitted to the Congress in FY 1997.  The Department's first Summary Performance Plan covering program activities set out in the FY 1999 budget was submitted to the Congress in February 1998 and the second Summary Performance Plan covering FY 2000 was submitted to the Congress in
March 1999, after the transmittal of the President's budget.
The Justice Management Division (JMD) has oversight responsibility for the implementation of the Results Act requirements within the Department.  JMD developed the first Strategic Plan at the Department level.  The Plan encompassed the wide array of functions and program activities within the Department.  JMD also developed the FY 1999 and FY 2000 Summary Performance Plans.  The FY 1999 Summary Performance Plan included results-oriented performance goals and showed progress towards meeting the long-term goals included in the Department's Strategic Plan.  Our audit focused on the FY 2000 Summary Performance Plan.  The purpose of our audit was to determine if the FY 2000 Summary Performance Plan was prepared in accordance with the requirements of the Results Act and Office of Management and Budget (OMB) Circular A-11, Preparation and Submission of Budget Estimates,
July 1998.  Overall, we found that the FY 2000 Summary Performance Plan generally met the requirements of the Results Act and OMB guidance.  However, we found that the following areas needed improvement.
The Summary Performance Plan included performance goals and performance indicators that were not measurable or needed improvement, and the Plan did not include performance goals covering three of the Department's strategic goals or management problems.
A discussion of how other federal agencies participate in crosscutting program activities with the Department was not included in the Plan, and some crosscutting program activities were not linked to specific performance goals.
The Summary Performance Plan did not include strategies that covered all of the performance goals or address external factors that could impede the Department from achieving program results.
Departmental resources needed to achieve program results were not linked to specific performance goals.
Many components' performance plans that supported the FY 2000 Summary Performance Plan did not include the procedures for verifying and validating performance information.
The Summary Performance Plan did not include external data sources that the Department will use to measure performance and the Plan did not link data sources to specific performance goals.
The details of our work are contained in the Findings and Recommendations section of the report.  Our objectives, scope, and methodology are contained in
Appendix I.